Supreme Court, U.S.
FILED

NOV 0 2 2020
NO:

|

OFFICE OF THE CLERK

In The
SUPREME COURT OF THE UNITED STATES

ROSEMARY WEBSTER; TIMOTHY WARE, JR.; DENNIS JEFFERSON
Petitioner(s)
Y.

FRESENIUS MEDICAL CARE HOLDINGS, INC,;
a/k/a Fresenius Medical Care North America
Respondent(s)

On Appeal from the United States District Court
for the Middle District of Tennessee

PETITION FOR WRIT OF CERTIORARI

Dennis Jefferson
Pro Se
321 Gaywood Dr.
Nashville, TN 37211
(314)265-4558
dejefferson9@hotmail.com

QUESTIONS PRESENTED
1. The Due Process clause of the United States Constitution entitles a person to an
impartial and disinterested tribunal in civil cases. This neutrality requirement
in adjudicative proceedings safeguards two central concerns. First, it prevents an
unjustified or mistaken deprivation of property. Second, it promotes participation
and dialogue by litigants in the decision-making process. Did the Sixth Circuit
Court of Appels affirm a judgment that violated the Petitioners fundamental
rights by supporting an opinion that (I) repeatedly transgresses the applicable
standard of review, and (II) prejudicially omit the Petitioners allegations and
arguments?
2. Whether the unpublished appellate opinion used case law to redirect the interest
of justice and render a decision that suggest bias, prejudice or favoritism should
be allowed to stand unchanged?

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

11

TABLE OF AUTHORITIES

IV

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVIONS

1

STATEMENT OF THE CASE

2

PETTITON OF WRIT OF CERTIORARI

4

CONCLUSION

18

CERTIFICATE OF COMPLIANCE

19

CERTIFICATE OF SERVICE

20

APPENDIX

A-l thru A-92

Order of the United States Court of Appeals
Sixth Circuit
Dated July, 28, 2020 .....................................

A-l

Order of the District Court For The
Middle District of Tennessee Nashville Division,
Dated September 26, 2019, .................................

A-4

Report and Recommendation of the Magistrate Court
District Court For The Middle District of Tennessee Nashville Division,
Dated August 30, 2019 ................................................................................

A-6

Defendant Corporate Disclosure Statement

A-43

Motion To Reconsider Oder
District Court For The
Middle District of Tennessee Nashville Division,

A-44

Motion For Corporate Disclosure Statement
District Court For The Middle District of Tennessee
Nashville Division ......................................................

A-45

Order Extending Discovery by the Magistrate Court
District Court For The Middle District of Tennessee Nashville Division,
Dated July 18, 2018 .....................................................................................

A-61

iii

Motion To Reconsider
District Court For The Middle District of Tennessee
Nashville Division ...........................................................

A-69

TABLE OF AUTHORITIES
Federal Cases:

Page

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)

4

Berger v. United States, 255 U.S. 22, 28, 36 (1921)

11

Bd. of Regents of State Colls, v. Roth, 408 U.S. 564, 577 (1972)

11

Bouyer v. Simon, 22 F. App x 611, 612 (6ith Cir.2001)

4, 13

Evans v. Techs. Applications & Serv. Co., 80 F.3d 954, 958
(4th Cir. 1996) ..................................................................

4

Foster v. Univ. of Md.-E. Shore, 787 F.3d 243, 248
(4th Cir. 2015)....................................................

4

Geboy v. Brigano, 489 F.3d 752, 767 (6th Cir. 2007

4

Hazel Atlas Glass Co. v. Hartford Empire Co., 322 U.S. 238 (1944)

15

Libertarian Party of Va. v. Judd, 718 F.3d 308, 312
(4th Cir. 2013) ..................................................
Hammerschmidt v. United States, 265 U.S. 182 (1924)
Link v. Wabash R, Co., 370 U.S. 626, 630-631 (1962)
Liteky v. United States, 510 U.S. 540, 555 (1994)
McNeil v. United States, 508 U.S. 106, 113 (1993)
United States v. Lundwall, 1 F. Supp. 2d 249 (S.D.N.Y. 1998)
iv

4
6
10
4, 13
13
8

State Cases:

Page

Aoude v. Mobil Oil Corp., 892 F. 2d at 1118

10

Cox v. Burke, 706 So. 2d at 46

10

Smith v. Department of HRS, 522 So. 2d 956 (Fla. 1st DCA 1988

5

Slomowitz v. Walker, 429 So. 2d 797, 800 (Fla. 4th DCA 1983)

6

Small Business Admin, v. Echevarria, 864 F. Supp. 1254 (S.D. Fla. 1994)

6

CONSTITUTIONAL PROVISIONS

PAGE

U.S. Constitutional Amendment V

1

FEDERAL STATUTES

18U.S.C. § 371

8

18 U.S.C. § 1503

8

42 U.S.C. § 1981

12

28 U.S.C. § 1254(1)

1

42 U.S.C. § 2000e-2(l)

1

OTHER AUTHORITIES

Page

Federal Reule of Civil Procedure Rule 7.1
Disclosure Statement (a)(l)(2)(b)(l)(2)

2

King James Bible, (1831/2020) .....................

17

Merriam-Webster Dictionary, 1828

10

R v Sussex Justices, ex parte McCarthy ([1924] 1 KB 256, [1923]

18

v

King James Bible, (1831/2020)

18

Merriam-Webster Dictionary, 1828

11

R v Sussex Justices, ex parte McCarthy ([1924] 1 KB 256, [1923]

vi

1

OPINIONS BELOW
The unpublished opinion of the United States Court of Appeals for the Sixth Circuit
is attached hereto as appendix A-l. The order of the district court is unpublished
and attached hereto as appendix A-2. The report and recommendation of the
magistrate judge is unpublished and attached hereto as appendix A-3

JURISDICTION
The judgment of the Sixth Circuit court of appeals was entered on July 28, 2020.
This jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Fifth Amendment: No person shall be held to answer
for a capital, or otherwise infamous crime, unless on a presentment or indictment of
a Grand Jury, except in cases arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be deprived of
life, liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.
42 U.S.C. § 2000e-2(a)(l) provides in pertinent part: “It shall be an unlawful
employment practice for an employer ... to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against any individual with respect to his
compensation, terms, conditions, or privileges of employment, because of such
individual’s race, color, religion, sex, or national origin.”

1

STATEMENT OF THE CASE
Petitioners alleged that they were denied equal opportunity to apply for permanent
internal fulltime and or management job promotions within the Production Support
Services Division within the defendant’s User Security Administration department.
This department is one of many Information Technology Departments the
defendant has within its entity and the allegation stated that the defendant
repeatedly blocked/removed and or disabled job links before the established job
posting policy of 5 days, promoted similarly situated and or less qualified Caucasian
coworkers and such companywide behavior dated on or before January of 2008. The
defendants foreknew their behavior would discriminate against the plaintiffs by
repeatedly violating their own established policies and procedures which promoted
an atmosphere of discrimination. Petitioners filed its complaint against the
defendant Fresenius USA Manufacturing, Inc., pursuant to the defendants’
business filing with the State of Tennessee and amended this filing due to
defendant’s response to compliant that stated there was no connection between the
named entities of Fresenius USA Manufacturing, Inc., National Medical Care, Inc.,
Fresenius Medical Care North America, and Fresenius Medical Care Holdings, Inc.
Petitioners research found the active assumed name for Fresenius USA
Manufacturing, Inc. is A/K/A Fresenius Medical Care North America (FMCNA)
which formed after the 1996 merger of National Medical Care, Inc., and Fresenius
USA, Inc., which named Fresenius Medical Care Holdings, Inc., as the parent entity
which is D/B/A Fresenius Medical Care North America.
The Defendant did not initially enter a Corporate disclosure statement per Federal
Rule of Civil Procedure Rule 7.1 Disclosure Statement (a)(l)(2)(b)(l)(2). The
defendant answered the Petitioners complaint as Fresenius Manufacturing USA
Inc. pleading lack of jurisdiction as the Plaintiffs were not employed by Fresenius
Manufacturing USA Inc..
This case was originally assigned to the Hon. District Judge Aleta A.
Trauger, which Hon. Trauger allowed Petitioners previous counsel of record to
2

withdraw stating that Petitioners did not want to follow their legal direction and
allowed the defendant to proceed without entering a Corporate Disclosure
Statement.
The Hon. Trauger would then assign the pretrial proceedings to the
Magistrate Court of Hon. Judge Joe Brown.
Plaintiffs submitted a motion to compel a Corporate Disclosure statement
from the Defendant.
The Hon Judge Joe Brown would moot the Plaintiffs Motion for Corporate
Disclosure, and the ICMO was held on December 7, 2017; Final Scheduling Order
entered on December 13th, 2017 that included a set discovery deadline of August 31,
2018.
The Plaintiffs filed a motion to amend their 3rd complaint on March 6, 2018,
removing named defendants National Medical Care, Inc., d/b/a Fresenius Medical
Care North America; and Fresenius Manufacturing USA Inc., d/b/a Fresenius
Medical Care North America and plaintiff Connie Hannah.
Petitioners filed their motion to recuse Hon Judge Brown on November 16,
2018 and district Court denied Petitioners motion to recuse. Petitioners also sought
to review Hon Judge Brown order denying Motion for leave to take deposition of
Defendant out of time- which was also denied. Petitioner filed their first appeal and
Appellant court dismissed review due to final order not being filed in case.
Magistrate Court enters Report and Recommendation in favor of Summary
Judgment which petitioner allege violation of due process during his cause of action.
District Court enters order dismissing case with prejudice and Petitioner filed a
timely appeal. The United States Court of Appeals for the Sixth Circuit affirms
through an unpublished decision in favor of the district court on July 28, 2020
attached hereto as appendix A-l.

This petition is filed due to the lower courts failure to adhere to the rule of justice
and bias treatment during petitioner’s cause of action.

3

REASONS FOR GRANTING THE WRIT
The Appellate Court reviewed the district court’s order to grant summary judgment
de novo. Evans v. Techs. Applications & Serv. Co., 80 F.3d 954, 958 (4th Cir. 1996).
In doing so, the appellate Court is “required to view the facts and all justifiable
inferences arising therefrom in the light most favorable to the nonmoving party,”
Libertarian Party of Va. v. Judd, 718 F.3d 308, 312 (4th Cir. 2013), and “must not
weigh evidence or make credibility determinations.” Foster v. Univ. of Md.-E.
Shore, 787 F.3d 243, 248 (4th Cir. 2015). The appellate Court could reverse the
granting of summary judgment if, when viewed in this light, procedural due process
was not fairly imputed and “the evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986).
The appellate court erred in its decision when dismissing the petitioner’s allegations
as conclusory, determining that the district court did not engage in ex-parte collusion communications, and did not deliberately or materially modify court
transcripts and recordings. The decision stereotyped the petitioners cited
allegations and literally dismissed their claims of due process with case law stating
that it is binding.”Liteky v. United States, 510 U.S. 540, 555 (1994)
It also states that pro se parties must still comply with briefing standards set forth
in the Federal Rule of Appellate Procedure 28. “Bouyer v. Simon, 22 F. App xX611,
612 (6ith Cir.2001) (citing McNeil v. United States, 508 U.S. 106, 113 (1993)); and
that since the petitioners did not address the district court reasons for granting
summary judgement in favor of the defendant, the petitioners forfeit any possible
challenge to the district court decision.”Geboy v. Brigano, 489 F.3d 752, 767 (6th
Cir. 2007.” The appellate court failed to properly vet the allegations in an
exhaustive manner during their De novo review.
The petitioners challenge this decision as unconstitutional and a bias peer to peer
review rendered to protect a colleague, a racial class member or both. Case law
4

does not reconcile how civil a litigant, moreover pro se litigants, can discover, and
establish facts without being granted an equal, fair and impartial hearing by the
court. An impartial De novo review would have found issues with how the district
court executed and infringed upon the petitioner’s procedural due process rights.
I.

The courts cannot hinder the truth and remain impartial

The court continues to violate each litigant’s due process right(s) each time the
court assist the defendant(s) in their pleadings to hide and or mislead their true
corporate identity structure by repeatedly ignoring their disingenuous pleadings
concerning the use of their active assume name. The active assume name is a legal
connection to their corporate identity and can also serve as a direct liability to any
cause of action filed against it. The need for a proper Corporate Disclosure
Statement not only serves governance for recusal, but it will also allow the courts to
verify diversity at the outset of litigation and ensure any previously hidden fact or
series of facts are made known concerning the defendants true corporate identity.

The district court erred in its administration of procedural due process when the
court allowed the defendant to omit compliance to the Federal Rules of Civil
Procedure; Rule 7.1.(a),(l);(b):(l)(2), drawn from Rule 26.1 of the Federal Rules of
Appellate Procedure. This act allows past, present, and future defendants to enter
an official document(s) or act(s) into record as a plea. This procedural avoidance
makes the court accountable facially for any disingenuous pleadings concerning the
factual truth of the defendant’s corporate identity. It will also indicate that the
court is bias toward the plaintiffs) and in collusion with the defendant. This cause
of action is a great example because we find that the plea originally entered by the
defendant was not an accurate disclosure of the defendant’s identity structure and
found to be a disingenuous pleading through ferret research. 1

1 The “clear and convincing” standard is an intermediate standard of proof between a
“preponderance of the evidence” and “beyond a reasonable doubt.” Smith v. Department of HRS, 522
5

The defendants entered a corporate disclosure statement stating that there was no
legal connection between Fresenius Manufacturing USA, National Medical Care,
Inc., and Fresenius Medical Care Holdings Inc., and that National Medical Care,
Inc., is the entity that owns the active assume name D/B/A Fresenius Medical Care
North America. The problem here is that the defendant never promptly tried to
correct any misstatements in their pleadings and the court tolerated the civil
injustice with ample precedential support by mooting the Petitioner’s Motion for
Corporate Disclosure Statement.2 Furthermore, The defendants corporate
disclosure statement on file for Fresenius Medical Care Holdings Inc., the parent
entity, does not disclose that they are D/B/A Fresenius Medical Care North America
(Appen - 4)
This presents a constitutional problem on two fronts for the courts. First, when the
courts allow the omission of the Federal Rules of Civil Procedure; Rule
7.1.(a),(l);(b):(l)(2), the courts automatically present a bias to every civil plaintiff
and this bias conflicts its role in remaining impartial concerning the interest of
justice. This omission, as seen in this cause of action, is a direct indicator of judicial
bias and restricts the interest of justice to favor the defendant’s pretextual
statement as a statement of fact throughout the cause of action. The defendant
could then argue no liability or legal connection upon the face of the corporate
disclosure statement. When you consider the fact that the court mooted the

So. 2d 956 (Fla. 1st DCA 1988). For evidence to be “clear and convincing” “[it] must be of such weight
that it produces in the mind of the trier of a fact a firm belief or conviction, without hesitancy, as to
the truth of the allegations sought to be established.” Slomowitz v. Walker, 429 So. 2d 797, 800 (Fla.
4th DCA 1983). See also Small Business Admin, v. Echevarria, 864 F. Supp. 1254 (S.D. Fla. 1994).
2 Hammerschmidt v. United States, 265 U.S. 182 (1924) To conspire to defraud the United States
means primarily to cheat the government out of property or money, but it also means to interfere
with or obstruct one of its lawful governmental functions by deceit, craft or trickery, or at least by
means that are dishonest. It is not necessary that the government shall be subjected to property or
pecuniary loss by the fraud, but only that its legitimate official action and purpose shall be defeated
by misrepresentation, chicane, or the overreaching of those charged with carrying out the
governmental intention. It is true that words 'to defraud' as used in some statutes have been given a
wide meaning, wider than their ordinary scope. They usually signify the deprivation of something of
value by trick, deceit, chicane, or overreaching. They do not extend to theft by violence. They refer
rather to wronging one in his property rights by dishonest methods or schemes.
6

attempt to ascertain the facts of the defendants pleadings and submission of the
inconsistent Corporate Disclosure Statements, such constraints will make it
impossible for the court to properly administrator due process for any plaintiff(s),
yet alone a Pro se plaintiff. As a result, the court directly prevented the petitioners
from presenting direct evidence refuting the official document and or act pleaded by
the defendant. The court cannot remain impartial throughout the cause of action
once it has used its authority to obstruct the revelation of truth to benefit a
particular party.
The second constitutional issue this behavior presents is that this behavior will
automatically burden every plaintiff(s) in seeking justice by making the plaintiff(s)
pursue an unnecessary fact in discovery. The defendant has a responsibility to
disclose their corporate structure by listing the parent, every assumed name of
operation and affiliates structured in its entity to the court. This will ensure that
the administration of justice remains impartial. This cause of actions reveals that
the district court knowingly permitted the submission of evidence that the court
foreknew to be incomplete concerning the interest of justice and such actions should
have been a clear breach of professional ethics, and or law. The court should have
had the defendant give a show cause as to why its pleas have been inconsistent to
the previous corporate disclosure statements offered as evidence in the petitioners
exhibits which was attached to their Motion for Corporate Disclosure Statement.
(A - 45)3
The petitioner presented cited evidence directly from the defendants’ previous cases
of record. The repeated fabrications in pleadings directly affected the heart of the
defendants claims and should have undermined the integrity of their case. The
3 The court holds the sole responsibility and obligation to deter such conduct under such
circumstances. The magistrate court should have deemed this action to be more harmful to the
administration of justice or more hurtful to the public appraisal of the legal system because it
resulted in an official document or act becoming a false pleading in the judicial system by a
knowledgeable, licensed attorney.

7

defendant, through its legal counsel, pleaded that a certain legal connection did not
exist. This would make the previous pleadings and the mooting of the motion to be
a calculated attempt to conceal relevant information from the plaintiffs.
The complicit bias of the court is directly revealed in the courts demand that the
plaintiffs bring back any evidence of their employment connection to the defendant’s
parent entity. After the production of evidence, the court would then give the
plaintiffs the right to file a summons against the parent entity for suit.4
The defendants misconduct obstructed the discovery process, included fraud on the
court, and perjury, which was designed to impede the plaintiffs ability to conduct
discovery which was vital to their cause of action. The defendant held in total
disregard the integrity of the judicial system and the gravity of defendant’s
behavior should have been addressed immediately by the magistrate court.
In United States v. Lundwall, 1 F. Supp. 2d 249 (S.D.N.Y. 1998), for example, “the
government indicted two former Texaco employees who allegedly withheld and later
destroyed corporate documents sought by the plaintiff in a race discrimination
action against the company, and charged them with violating 18 U.S.C. §1503,
which makes it a federal offense to corruptly obstruct or impede the due
administration of justice, and with conspiracy to obstruct justice in violation of 18
U.S.C. §371. The defendants moved to dismiss the indictment, claiming, in part,
that §1503 is not available to punish persons for civil discovery violations. Instead,
the defendants argued that the sanctions provided for in Fed. R. Civ. P. 37 were
more than adequate to punish them for their alleged discovery abuses and provided
ample remedies to the injured plaintiff. The Southern District of New York
disagreed. The court held that, even though there is a paucity of authority on the
issue, §1503 plainly encompassed the defendants’ alleged misconduct (i.ethe

4 A questionable order and notable conservation omitted from court transcripts

8

deliberate concealment and destruction of relevant documents), because it was
certain to impede or, at least, attempt to impede justice in the underlying civil
action. The court also rejected the defendants’ argument regarding the adequacy of
Rule 37 sanctions, noting that the indictments did not involve misconduct by a
party to the civil action, but rather by individuals who acted independent of their
employer and its counsel. In any event, the court held that “a court [is free] to
impose civil and criminal sanctions in connection with the same contumacious
behavior.”
The lower courts have no plausible deniability because this is the exact issue that
was raised with particularity of the circumstances constituting fraud, mistake,
malice, or knowledgeable intent in the petitioner response to the district and Sixth
Circuit concerning reasons why not to grant summary judgment. The inconsistency
of allowing defendants to enter incomplete and contradicting corporate disclosure
statements and pleadings is a direct bias policy, practice and or procedure
conducted by the federal courts that solely favors the defendant and their cause of
action.
The courts cannot continue to allow a civil corporate defendant the right to plea and
or submit an inconsistent corporate disclosure statements if the plea is knowingly
not in good faith and there has not been a promptly filed supplemental statement
concerning any changes that will explain the disparity in the cited corporate
disclosure statement(s) submitted in the court records. The continued act is an
action that is prejudicial to plaintiffs and specially to pro se plaintiffs of color, as it
allows the defendant to impede the interest of justice under the disguise of the
court.
The defendant proclaimed that the active assumed named of their identity belonged
the entity of National Medical Care, Inc., and not the parent entity named
Fresenius Medical Care Holdings, Inc.. This should have been a legal question
allowed to be judicated solely by the trial judge and not be a hindrance in the

9

administration of due process.5 If there was a question concerning the defendants
true parent identity using the active assume name by the court, the court should
have allowed the trial judge to judicate this decision. The magistrate court made an
early determination on the case merits by blocking procedural evidence from being
presented which directly infringed upon the petitioner(s) right to due process.
The court have the inherent authority to reconsider decisions until the final
judgment and the inherent authority to impose sanctions. (Link v. Wabash R, Co.,
370 U.S. 626, 630-631 (1962) A proper De Novo review would have disclosed an
undeniable special interest or bias towards the petitioners by the District court
when the judge(s) expressed an actual personal bias or prejudice about the parties
or counsel by not seeking the truth concerning the defendant’s corporate identity.
If the Petitioners hold the burden of proof, there can be no reconciliation as to how
“a fictional person with an ordinary degree of reason, prudence, care, foresight, or
intelligence whose conduct, conclusion, or expectation in relation to a particular
circumstance or fact”, would not determine the forgoing actions as the existence of
negligence. (Merriam-Webster, 1828)
As a general rule, a litigant is deemed to have perpetrated a fraud on the court
when “it can be demonstrated, clearly and convincingly, that a party has “sentiently
set in motion some unconscionable scheme calculated to interfere with the judicial
system’s ability impartially to adjudicate a matter by improperly influencing the
[trier of fact] or unfairly hampering the presentation of the opposing party’s claim
or defense.” Cox, 706 So. 2d at 46 (quoting Aoude, 892 F. 2d at 1118)
II.

The lower courts used case law to deprive Pro Se litigants of their

Constitutional Rights

5 The defendant also claimed that each entity had a separate registered agent of service which was also a pretext
claim seeing that there was a legal connection between of all three named defendants in the second amended
complaint.

10

The district court did not ensure the petitioners right of a fair, impartial and
independent hearing, nor did it present the same in the De Novo review. The
appellate court decision erred in the fact that it did not establish that the
magistrate court’s decision(s) were not an expression of an actual personal bias or
prejudice about the parties. (Berger v. United States, 255 U.S. 22, 28, 36 (1921).)
The order stated that “judicial rulings alone almost never constitute a valid basis
for a bias or partiality motion.” Liteky v. United States, 510 U.S. 540, 555 (1994)
Affirming that little concern was given to the petitioners claim of judicial bias. The
appellate court erred when it did not give the petitioners alleged accusations more
preeminent consideration because the allegations specially stated that the district
court not only denied his due process rights through bias, ex parte communications
and or collusion, but also included deliberately or materially modifying court
transcripts and recordings, which would correlate to expanding the appellate court
files for review.
The dilemma presented to this court is how precedent has nullified a civil litigant
inalienable right. This can only be possible when a judicator does not provide a
litigant equal protection under the law and merely try to persuade the merits of the
case based on case law. No case law is constitutionally competent if it allows any
judicator the right to redirect the interest of justice and evade a citizen’s inalienable
right that are guaranteed by the U.S. Constitution. This is very evident in this
cause of action when you look at how the “must standard” disregarded petitioners
constitutional challenges. Bias will be present when the judicator solely relies upon
case law and does not adequately address the misbehaving conduct of counsel or the
bias behavior of the district court within its ruling(s) but solely focus on one party.
This action makes the law(s) or rule(s) on its substance unreasonable and irrational
violating due process.

It can be argued that if the petitioner’s property rights/interests is protected by
what is expressly stated in the employment contract. ”Bd. of Regents of State Colls.
11

v. Roth, 408 U.S. 564, 577 (1972)“, their claim of discrimination concerning their
property interest is not solely vested in whether a person is qualified, nor whether a
prima facie case is mad or not. The sole interest of the Federal Government is
whether the defendant employment policies and procedures abide by the laws of the
land and US Constitution. The government takes no interest in the hiring practice
of a company unless their decisions were made based on certain specified
characteristics: race, color, national origin, sex, and religion. Title VII of the Civil
Rights Act of 1964 and 42 U.S.C. § 1981 are federal laws that protect employees
against employment decisions made on the basis of stereotypes or assumptions
related to any protected characteristics.

A civil litigant, who holds a constitutional employment contract with an employer,
should be able to seek a claim of discrimination to protect the totality of their
property interest without regards to qualification. A true property holder has an
vested interest in the company operational procedures including the decision to
hire, promote, discharge, investments and how each decision was made in
accordance to the law. The vested property interest directly includes protecting
their sustenance, an environment providing equal opportunity, workplace free of
hostility, and their retirement investments.

A litigant should not have to meet qualifications to challenge the constitutionality of
an employment decision because the constitution and law provides that an employer
cannot make their decision based on certain specified characteristics nor
discriminate with regard to any term, condition, or privilege of employment. None of
which states an educational or job experience requirement but seeks to determine if
the decision made is based on stereotypes or assumptions related to any protected
characteristic.

12

Nevertheless, a law or rule that is constitutional competent will help bring prudent
judgment by bringing reason to the circumstances with expedient rationalization.
It should not be so pernicious that fairness must be questioned. The lower courts
dismissed the petitioners claim of judicial bias through case law and Federal rules
by stating that, “pro se parties must still brief the issues advanced and reasonably
comply with the [briefing] standards “ set forth in Federal Rule of Appellate
Procedure 28. Bouyer v. Simon, 22 F. App x 611, 612(6th Cir. 2001) (citing McNeil v.
United States , 508 U.S. 106, 113 (1193)). The order also stated that; “Moreover,
the plaintiffs are not entitled to relief on their judicial bias claim because “judicial
rulings alone almost never constitute a valid basis for a bias or partiality motion.
Liteky v. United States, 510 U.S. 540, 555(1194).
The cited rulings still do not grant any judge the right and or access to infringe on a
citizen’s inalienable rights by selectively deciding who should abide by the law and
rules governing the court. It will be contrary to the oath of office and allow this
branch to be above the very law in which they are sworn to uphold and defend. The
constitutional procedural due process clause is meant to protect persons not from
the deprivation, but from the mistaken or unjustified deprivation of life, liberty, or
property.
The lower court ruling does not address how the magistrate court continued in its
entangled favor for the defendant. The defendant ignored the rules and order of the
court by delaying the discovery process in a dilatory manner. The defendant
deliberately or willfully did not comply with the magistrate courts pretrial order
which required the defendant to work with the plaintiffs during the discovery
process.6 This act alone should have properly been addressed prior to the extension
by the court. This behavior give rise to; 1) Whether the attorney’s disobedience is

6 The decision to extend discovery was influenced in part by the defendant lack of response to the
plaintiffs inquires and the did not consider the extent of jury the plaintiffs suffered. This prejudice
is evident when considering how the plaintiffs were to take depositions at the end of the discovery
extension and the third amended compliant never added any new defendants but removed the two
subsidiaries of the defendant’s parent entity.
13

willful, deliberate, or contumacious, rather than an act of neglect or inexperience; 2)
Whether the delay prejudiced the opposing party through undue expense, loss of
evidence, or in some other fashion; 3) Whether the attorney offered a reasonable
justification for noncompliance; and 4) Whether the delay created significant
problems of judicial administration.7

The magistrate court points to the lack of trust the petitioner detailed in their letter
stating that they no longer seek discovery against the defendants. This letter was
issued because of the petitioner continued lack of faith in the judicial process
concerning yet another disingenuous act presented by an arm of the court. The
court reporting agency neglected to timely inform the petitioner of the site
relocation and it was the petitioner who disclosed the relocation error. This action
once again solely benefitted the defendant and forfeited the relinquishing trust the
petitioner held in an impartial judicial process. More importantly, the plaintiffs
were prejudiced by the court actions to extend discovery because the court originally
granted eight months of discovery to ascertain the facts. The defendant’s willful
negligence in complying to the court orders caused the petitioner to be scheduled
toward the end of discovery with only three weeks to ascertain their facts. The
defendant cannot show compliance to the magistrate court order in record prior to
extension nor sufficiently explain why a rush to complete their set of depositions
only appear in record after extension was granted. (A-61)
The integrity of the civil litigation process is doomed to failure if it does not depend
upon the truthful disclosure of facts. A just and impartial justice system cannot
solely depend on an adversary’s ability to uncover falsehoods. The calculated

1 The magistrate court was already notified that the defendant was not complying to its order as the court stated
in DE 49 that "Apparently there is some type of discovery dispute in this matter. At least four of the plaintiffs have
called the undersigned's office demanding an in-court hearing. If there is a discovery dispute, the plaintiffs will
confer with counsel for the defendants, prepare a joint statement of the issues in dispute and request a telephone
conference about the matter with my office."

14

pleadings or misleading will be engulfed in conduct to evade or stymie discovery.
This type behavior must be discouraged in the strongest possible way because such
actions constitute serious misconduct and is an obvious affront to the
administration of justice, and the courts discretionary determination in fact finding.
The Court noted that “tampering with the administration of justice.. . is a wrong
against the institutions set up to protect and safeguard the public, institutions in
which fraud cannot complacently be tolerated consistently with the good order of
society”. Hazel Atlas Glass Co. v. Hartford Empire Co., 322 U.S. 238 (1944)
It is by the magistrate courts own admission that the defendant wanted to continue
forward in the case several months after the plaintiffs amended their third
complaint. The court did not offer any reasoning as to why the defendant was not
fully engaged in responding and adhering to its court order. The appellate court
decision also declines to hold the lower court accountable for a continued
infringement upon the petitioner’s constitutional rights but elects to spend
considerable time in redirecting the interest of justice away from the factual cited
evidence. It is unconstitutional to demand and expect any litigant, more over a pro
se litigant, to continue in a process, bond by a rule of law, when the court itself have
not provided a fair and equal opportunity to ascertain the facts of the case. Case law
should not be used as the sole basis of justice when the court itself will not adhere
to enforcing case law and federal rules in an impartial manner.
A court officer that will deliberately and knowingly seek to corrupt the legal process
should logically expect to be excluded from that process and any decision rendered
herby that suggest bias, prejudice or favoritism should not be allowed to stand as a
rule or law.
III. The Ends of Justice Require Disclosure
The appellate court decisions erred once again in not recognizing the fact that the
people have a right to freedom of information. The opinion literally dismisses the
15

allegations as baseless conclusory assertions which should cause great concern for
any litigant constitutional right to a procedural due process.
Justice requires disclosure of the factual recordings concerning statements made in
each hearing held before the Magistrate judge in this cause of action. The greatest
concern to this court should not be if the district court deliberately or materially
modified court transcripts and recordings in this cause of action, but if any district
court has been engaged in such behavior for an extended period of time. The
interest for the citizens of the United States should be assured that its publicly
appointed and elected officials are being honest to their oath and in their
representations. The interest of the United States citizens, whose service and
obedience to its laws are compelled, must be certain that their consent is not
mischaracterized by the very publicly appointed and elected officials on whom they
rely to advise them.
The court must protect and defend any act of intrusion against its justice system as
the constitutional interest of all citizens rest within its integrity. The alleged act of
deliberately or materially modifying court transcripts overwrites factual statements
and or testimony from record. This would make any De novo review severely
transgress the applicable standard of review and ensure any De novo review appear
to create a culture that is contempt for the facts and not a judicious decision
acceding from the factual evidence entered.8
Any reasonable person, conducting an impartial review of the circumstances, would
naturally question if the transcripts and recordings were deliberately or materially
modified especially when direct evidence reveal court bias concerning inconsistent
corporate disclosure pleadings. A reasonable person would also question the
validity of the transcripts and recordings if the transcripts and recordings did not
reflect key conversations made in the many hearing(s) held before the district court.

8 This creates an irresolvable conflict of interest because the court will not be able to uphold its oath
of office in protecting and defending the constitutional rights of American citizens and remain
impartial to administrator their due process rights of life, liberty or property.
16

The petitioners cannot cite the record for missing files and or modified recordings on
a closed record. The only way the petitioners could have produced direct evidence
is if the court allowed them to research and review the district court’s stored files on
their server. This allegation presents a constitutional issue that demands the
integrity of the justice system to remain transparent before the American people
because the Federal Justice System, alone, hold the authority of this factual truth.
If the petitioners foreknew that the company they worked for has a legal entity
name of Fresenius Medical Care Holdings, Inc.; doing business as Fresenius
Medical Care North America,9 and wanted to initiate their cause of action against
that name and 1) the defendant entered a pretextual pleading that there is no legal
connection; 2) petitioners previous counsel of record disputed in favor of the
Defendant pretextual pleading and withdrew —(A 69); 3) the district court ignored
the federal rule of entry for the corporate disclosure statement and solely relied on
the pretextual pleading; and 4) the magistrate court mooted the motion to compel
protecting the pretextual pleading10 (A 45), it would be a reasonable allegation to
make if the hearing transcripts did not acutely record and transcribe the
statements made by all parties over the Defendant pretextual pleading.11
“You shall not distort justice; you shall not be partial, and you shall not take
a bribe, for a bribe blinds the eyes of the wise and prevents the words of the
righteous. Justice and only justice, you shall pursue, that you may live and
possess the land which the Lord your God is giving you. (King James version.
Deuteronomy 16:18-20)

9 The Petitioner informed previous council of record that all named legal entities of the defendant were legally
connected but previous council refused to file against the defendant's parent entity. Previous council motioned
the court to withdraw stating that the petitioner did not want to follow their legal direction. Ferret research
reveals that petitioner was well within his rights to file against each name entity and the court had no validated
reason to allow council wo withdraw which furthered prejudiced the petitioner cause of action because the court
never inquired as to what issues persisted.
10 The district court record only shows the magistrates order was entered as a text document at DE 39
11 The dexterity of the Petitioner, concerning the merits of the case, is very reasonable seeing that he was able to
assert such allegations at the start of the case which disclose questionable acts by previous council that favored
the defendant pretextual pleading(s).

17

Any form of modification to the original district court file of record is a disingenuous
act to expand the court records and obstruct the interest of justice. The lack of
inquiry into the allegation of altered transcripts and recordings, upon its face,
appears to be an error veered in bias and give rise to a constitutional issue
concerning the petitioner right to due process.
“Justice should not only be done, but should manifestly and undoubtedly be
seen to be done.” Lord Hewart (1870-1943), in Rex v. Sussex Justices
CONCLUSION
Based on the foregoing, the petitioner respectfully submits that this Petition for
Writ of Certiorari be granted. The Court may wish to consider summary reversal of
the decision(s) by the appellate court of the Six Circuit and the remand of this
matter to that court for further proceedings.

Respectfully Submitted,

Dennis Jefferson
Pro Se
321 Gaywood Dr.
Nashville, TN 37211
(314)265-4558
Deiefferson9@hotmail.com

18

